 DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


        Management Letter for the 

       FY 2006 FLETC Balance Sheet 





OIG-08-04                   October 2007
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                   October 16, 2007

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our oversight responsibility to promote economy, efficiency, and effectiveness within the
department.

This report presents the management letter for FLETC’s FY 2006 balance sheet audit. It contains
observations and recommendations related to internal controls that were not required to be reported
in the balance sheet report. The independent public accounting firm KPMG LLP (KPMG)
performed the audit of FLETC’s FY 2006 balance sheet and prepared this management letter.
Material weaknesses and other reportable conditions were reported, as required, in KPMG’s
Independent Auditor’s Report, dated December 8, 2006, that was included in the FY 2006 FLETC
Performance and Accountability Report. KPMG is responsible for the attached management letter
dated December 31, 2006, and the conclusions expressed in it. We do not express opinions on
FLETC’s balance sheet or internal control or conclusions on compliance with laws and regulations.

The recommendations have been developed to the best knowledge available to the OIG, and have
been discussed in draft with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Department of Homeland Security

Secretary
Deputy Secretary
Executive Secretariat
Chief of Staff
Deputy Chief of Staff
General Counsel
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative Affairs
Under Secretary, Management
Chief Financial Officer
Chief Information Officer
Chief Security Officer
Chief Privacy Officer
DHS GAO/OIG Liaison

Federal Law Enforcement Training Center

Director
Chief Financial Officer
Chief Information Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
